Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters. com

October 11, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

Re:

Todd C. Bank v. Peter R. Marksteiner, in His Official Capacity as
Clerk of the United States Court of Appeals for the Federal

Circuit
Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioner, on October 11, 2019,1 caused service to be made pursuant
to Rule 29 on the following Respondent:
'
RESPONDENT:
Chief Clerk Peter R. Marksteiner
United States Court of Appeals
for the Federal Circuit
717 Madison Place NW
Room 401
Washington, DC 20439
202-275-8000
This service was effected by depositing three copies of a Petition for a Writ of
Mandamus in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting digital copies via electronic mail.
lineerely,

urD. Chotin, Esq.
Principal

RECEIVED
OCT 1 6 2019

